OIG Audit Report GR-70-08-002

National Institute of Justice Crime Laboratory Improvement Program Cooperative Agreement to New Jersey Department of Law and Public Safety, Trenton, New Jersey

Audit Report GR-70-08-002


May 2008
Office of the Inspector General


Executive Summary


 The U.S. Department of Justice (DOJ) Office of the Inspector General (OIG), Audit Division, has completed an audit of the National Institute of Justice (NIJ) Crime Laboratory Improvement Program cooperative agreement 2004-LP-CX-K020. The New Jersey Department of Law and Public Safety (DLPS) received the $1,987,000 agreement in September 2004 to purchase equipment to increase capacity, replace obsolete technologies, and improve safety conditions at New Jersey State Police forensic science laboratories. The DLPS also contributed an additional $815,960 as a required share of its total program costs of $2,802,960. 
 The objective of our audit was to determine whether the costs reimbursed under the agreement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the agreement. We also assessed the DLPS’s program performance in meeting agreement objectives and overall accomplishments. 
We determined that the DLPS did not fully comply with the agreement requirements we tested. We reviewed compliance with six essential agreement conditions and found material weaknesses in four of the six areas: (1) agreement expenditures, (2) matching expenditures, (3) reporting, and (4) program performance.
We found that the DLPS charged to the agreement $13,942 in unallowable expenditures for items not budgeted, and $24,527 in unallowable indirect costs. We also found $815,960 in matching expenditures were unsupported. As a result of the deficiencies, we   question a total of $854,429 in expenditures.1 The questioned costs total about 30 percent of the total program costs. In addition to the questioned costs, we had five management findings related to inventory control, matching expenditures, reporting, and program performance. 
 We found the DLPS did not have an adequate inventory system in place to track and ensure agreement-funded equipment is safeguarded, and did not have a system in place at the time of the agreement to accurately track personnel matching expenditures. We also found Financial Status Reports were not accurate and progress reports did not adequately describe program activities and status in meeting objectives. Finally, we concluded that the DLPS did not collect the appropriate performance data for agreement funded programs that would have allowed us to evaluate the extent to which the objectives of the programs were met. 
 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix I. 
 We discussed the results of our audit with DLPS officials and have included their comments in the report, as applicable. In addition, we requested a response to our draft audit report from the DLPS and the NIJ. The response from DLPS has been attached as Appendix III of this report. The Office of Justice Programs provided a response for the NIJ, Appendix IV of this report. Our analysis of both responses, as well as a summary of the actions necessary to close this report can be found in Appendix V of this report.



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.








Return to OIG Home Page